CERTIFICATE
I, Rodney Berryman Sr., certify that the petition for rehearing is
being submitted briefly and distinctly stating its grounds. Which, shows
petitioner believe from the trial record, and present counsel's Appellant
Opening Brief, at DKtEntry. 200...,That petitioner's Sixth Amendment
constitutional right was violated under the McCoy and Eddy violation.
I, Rodney Berryman Sr., also Certify that the Petition for Rehearing
is presented in good faith and not for delay.

FOOT-NOTE
It must be noted, that petitioner do not have the help from counsel,
and that petitioner is not a jail house lawyer. Also, I’m a high school,
drop out with a learning disability - But I have tried my best to submit
this petition briefly as I could with my limited education.

